Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




ARIZONA IMPROPERLY CLAIMED
FEDERAL REIMBURSEMENT FOR
  MEDICAID SCHOOL-BASED
   ADMINISTRATIVE COSTS



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                     January 2013
                                                     A-09-11-02020
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicaid Coverage of School-Based Administrative Costs

Congress amended section 1903(c) of the Social Security Act (the Act) in 1988 to allow
Medicaid coverage of health-related services provided to children under the Individuals with
Disabilities Education Act. The school-based health program permits children to receive
health-related services, generally without having to leave school. The Act provides for States to
be reimbursed for administrative activities that directly support identifying and enrolling
potentially eligible children in Medicaid. The Federal reimbursement is 50 percent of allowable
administrative expenses.

School or school district employees may perform multiple administrative activities related to
Medicaid and other programs not eligible for Federal Medicaid reimbursement. According to
Federal regulations, one acceptable method for allocating employees’ salaries and wages to
Medicaid is random moment sampling, which uses random moment timestudies (RMTS). The
sampling methodology must meet acceptable statistical sampling standards, including that the
results must be statistically valid.

The Centers for Medicare & Medicaid Services’ (CMS) Medicaid School-Based Administrative
Claiming Guide (CMS guide), dated May 2003, provides information on the appropriate methods
for claiming Federal reimbursement for costs of Medicaid administrative activities performed in
the school setting. It requires that documentation be retained to support timestudies used to
allocate costs, including the sample universe determination, sample selection, and sample results.

Arizona’s Medicaid School-Based Administrative Claiming Program

In Arizona, the Arizona Health Care Cost Containment System Administration (State agency)
administers the Medicaid program. The State agency contracted with MAXIMUS, Inc.
(Maximus), to manage the Medicaid Administrative Claiming (MAC) program. The MAC
program allows local education agencies to receive Federal reimbursement through the State
agency for costs of Medicaid administrative activities in the school setting. The State agency
developed its own MAC guides (State guide) in calendar years 2004 (amended in October 2008),
2009, and 2010. CMS approved the 2010 guide on June 7, 2010.

The 2004 State guide (applicable to our audit period) required Maximus to conduct an RMTS to
determine the total costs and the Federal reimbursement for Medicaid school-based
administrative activities for each quarter. Maximus (1) randomly selected moments in time
(random moments) from a universe of total available moments and matched them with randomly
selected names from a universe of RMTS participants; (2) distributed an observation form for
each selected participant, who completed the form with a brief description of the activity
performed at the random moment; (3) used the information recorded on the observation forms to
calculate a statewide percentage of time spent on Medicaid administrative activities (statewide
Medicaid percentage); and (4) applied this percentage to the selected costs of local education



                                                i
agencies to determine the total costs and the Federal reimbursement. In this report, we refer to
this process as “the RMTS methodology.”

CMS requested that we review Medicaid school-based administrative costs that the State agency
claimed. Specifically, we reviewed $61,091,772 ($30,545,822 Federal share) for Medicaid
school-based administrative costs claimed on behalf of approximately 200 local education
agencies that participated in the MAC program during the period January 1, 2004, through
September 30, 2008 (a total of 19 quarters).

OBJECTIVES

Our objectives were to determine whether (1) the State agency maintained required
documentation to support the RMTS methodology used to allocate school-based administrative
costs to the Medicaid program and (2) the RMTS methodology was consistent with Federal
requirements.

SUMMARY OF FINDINGS

The State agency did not always maintain required documentation to support the RMTS
methodology used to allocate school-based administrative costs to the Medicaid program, and
the RMTS methodology was not fully consistent with Federal requirements. Of the $30,545,822
(Federal share) claimed, we determined that $11,716,850 was unallowable, and we set aside the
remaining $18,828,972 for CMS resolution.

For 2 of the 19 quarters, the State agency did not maintain required documentation to support
(1) the universes of total available moments in time and RMTS participants and/or (2) the sample
of random moments for selected participants. Because the State agency did not maintain this
documentation, the $5,421,711 in Federal reimbursement that it received for these quarters was
unallowable.

For the remaining 17 quarters, the State agency’s RMTS methodology was not fully consistent
with Federal requirements:

    •   The State agency inappropriately discarded sample items when calculating the statewide
        Medicaid percentages. We determined that $6,295,139 of Federal reimbursement was
        unallowable on the basis of the revised statewide Medicaid percentages we calculated.

    •   The RMTS methodology did not meet acceptable statistical sampling standards because
        the universes from which the sample items were selected were incomplete or incorrect.
        Because we were unable to determine which portion of the State agency’s claim for
        Federal reimbursement would have been allowable if complete or correct universes had
        been used to calculate the statewide Medicaid percentages, we set aside the remaining
        $18,828,972 for CMS resolution.

The State agency did not have adequate controls to ensure that it maintained all required
documentation to support the RMTS methodology and that the RMTS methodology was


                                                ii
consistent with Federal requirements. In addition, the 2004 State guide included incorrect
guidance that allowed Maximus to discard sample items.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $11,716,850 for unallowable school-based
       administrative costs,

   •   work with CMS to determine the allowability of $18,828,972 that we set aside and refund
       to the Federal Government any amount determined to be unallowable,

   •   strengthen controls to ensure that all required documentation to support the RMTS
       methodology is maintained and the RMTS methodology is consistent with Federal
       requirements, and

   •   review periods after our audit period and make appropriate financial adjustments for any
       unallowable school-based administrative costs claimed.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our third and fourth
recommendations. However, the State agency did not concur with our recommendation to
refund $11,716,850. The State agency commented that it objected to any findings based on
incomplete documentation for any dates before July 1, 2007, because it was under no obligation
to maintain those records beyond the 3-year retention period required by Federal regulations. In
addition, the State agency commented that because CMS was aware of the State agency’s
proposed RMTS methodology, our decision to recommend a disallowance associated with
discarded sample items was in error. Finally, the State agency did not concur with our findings
resulting in the recommended set-aside amount and commented that it explicitly reserved the
right to contest the findings in any action taken by CMS. The State agency’s comments are
included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We disagree that the State agency was under no obligation to maintain records beyond the 3-year
retention period. As established by Federal cost principles and State law, the record retention
period is 5 years from the date of final payment. Because the State agency received notice of our
ongoing audit in a letter dated October 20, 2008, it should have retained all records relevant to
school-based administrative costs for the entire audit period. Further, because CMS did not
approve the State agency’s proposed RMTS methodology, the State agency should have
followed the CMS guide. Also, the State agency did not provide any information explaining its
nonconcurrence with our findings that resulted in a set-aside amount. We maintain that our
findings and recommendations are valid.



                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Medicaid Coverage of School-Based Administrative Costs ................................1
              Random Moment Sampling and Timestudies ......................................................2
              Arizona Health Care Cost Containment System Administration
                and Third-Party Administrator..........................................................................2
              Administration of Arizona’s Medicaid Administrative Claiming Program ........2
              State Agency’s Random Moment Timestudy Methodology ...............................3

          OBJECTIVES, SCOPE, AND METHODOLOGY .........................................................4
               Objectives ............................................................................................................4
               Scope ....................................................................................................................4
               Methodology ........................................................................................................5

FINDINGS AND RECOMMENDATIONS ............................................................................6

          INADEQUATE DOCUMENTATION TO SUPPORT
            SAMPLING METHODOLOGY ..................................................................................7
               Federal and State Requirements...........................................................................7
               No Documentation for Sample Universe Determination
                and/or Sample Selection ...................................................................................7

          SAMPLING METHODOLOGY NOT FULLY CONSISTENT WITH
            FEDERAL REQUIREMENTS ....................................................................................8
               Inappropriately Discarded Sample Items .............................................................8
               Incomplete or Incorrect Sample Universes ........................................................10

          LACK OF ADEQUATE CONTROLS ..........................................................................11

          RECOMMENDATIONS ...............................................................................................12

          STATE AGENCY COMMENTS ..................................................................................12

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................13

APPENDIXES

          A: SUMMARY OF DEFICIENCIES BY QUARTER




                                                                    iv
B: UNALLOWABLE AND SET-ASIDE FEDERAL REIMBURSEMENT
    BY QUARTER

C: ORIGINAL AND REVISED STATEWIDE MEDICAID PERCENTAGES
    BY QUARTER

D: STATE AGENCY COMMENTS




                           v
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Section 1903(a)(7) of the Act permits States to claim Federal reimbursement for 50 percent of
the costs of Medicaid administrative activities that are necessary for the proper and efficient
administration of the State plan. States claim Federal reimbursement for eligible Medicaid
expenditures on the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program.

Federal regulations (2 CFR part 225, Cost Principles for State, Local, and Indian Tribal
Governments) contain principles and standards for determining allowable costs incurred by State
governments under Federal awards. Appendix A, section C.1., states that costs must be
reasonable, necessary, and allocable to Federal awards.

Medicaid Coverage of School-Based Administrative Costs

Congress amended section 1903(c) of the Act in 1988 to allow Medicaid coverage of
health-related services provided to children under the Individuals with Disabilities Education
Act. The school-based health program permits children to receive health-related services,
generally without having to leave school. The Act allows States to be reimbursed for
administrative activities that directly support medical assistance services, including identifying
and enrolling potentially eligible children in Medicaid. Administrative functions may include
outreach, eligibility intake, information and referral, health service coordination and monitoring,
and interagency coordination. The Federal reimbursement is 50 percent of allowable
administrative expenses. Because both Medicaid-eligible and non-Medicaid-eligible students
receive health-related services, the administrative costs of supporting these services must be
allocated between the two groups.

In May 2003, CMS issued a guide entitled Medicaid School-Based Administrative Claiming
Guide (CMS guide) on how schools and State Medicaid agencies should claim Federal
reimbursement for costs of Medicaid administrative activities performed in the school setting.
The CMS guide clarifies and consolidates CMS’s guidance on how to meet statutory and
regulatory requirements and explains the application of such requirements. This explanation
covers how to properly allocate school-based administrative costs to ensure that States claim
only administrative costs that are eligible for Federal reimbursement under the Medicaid
program.


                                                 1
Random Moment Sampling and Timestudies

School or school district employees may perform multiple administrative activities related to
Medicaid and other programs not eligible for Federal Medicaid reimbursement. State Medicaid
agencies may use either of two methods to allocate employees’ salaries and wages to Medicaid:
(1) personnel activity reports (e.g., timesheets) that reflect an after-the-fact distribution of the
actual activity of each employee or (2) a substitute system, such as random moment sampling.

According to 2 CFR part 225, random moment sampling, which uses random moment
timestudies (RMTS), is one of the federally acceptable methods for allocating costs to Federal
awards when employees work on multiple activities not allocable to a single Federal award. The
CMS guide clarifies the random moment sampling requirements in 2 CFR part 225 by providing
information on the sample universe, 1 sampling plan methodology, treatment of the summer
period, RMTS documentation, training for RMTS participants, and monitoring process.

Arizona Health Care Cost Containment System Administration
and Third-Party Administrator

In Arizona, the Arizona Health Care Cost Containment System Administration (State agency)
administers the Medicaid program. Effective January 2004, the State agency entered into a
contingency fee contract with MAXIMUS, Inc. (Maximus), to manage the Medicaid
Administrative Claiming (MAC) program as a third-party administrator. The MAC program
allows local education agencies to receive Federal reimbursement through the State agency for
costs of Medicaid administrative activities in the school setting. 2

The contract stated that Maximus was required to comply with the procedures in the CMS guide
when claiming school-based administrative costs and to retain “all necessary financial and
programmatic records, supporting documentation, statistical records and other related
documents ….” The contract also stated that the State agency would perform oversight
activities, including but not limited to policy development, claims processing, and auditing.

Administration of Arizona’s Medicaid Administrative Claiming Program

To administer the MAC program, the State agency developed its own MAC guides (State guide)
in calendar years 2004 (amended in October 2008), 2009, and 2010 and submitted them to CMS
for approval. CMS approved only the 2010 State guide on June 7, 2010. 3 The purpose of the
1
    The universe is also called the population.
2
 In Arizona, local education agencies include public school districts, charter schools not sponsored by a school
district, and the Arizona State Schools for the Deaf and the Blind. Local education agencies must enter into an
agreement with the State agency to participate in the MAC program.
3
  Federal cost principles (2 CFR part 225, Appendix B, section 8.h.(6)) and section V.B. of the CMS guide indicate
that a State’s use of a substitute system, including the alternate methodology for allocating salaries and wages
described later in this report in the subsection entitled “Inappropriately Discarded Sample Items,” is subject to CMS
approval. However, CMS did not approve or disapprove the State guides developed in calendar years 2004
(amended in 2008) and 2009.



                                                          2
State guide was to inform Maximus and local education agencies on how to claim quarterly the
Federal reimbursement for costs of Medicaid school-based administrative activities.

The quarterly MAC program claiming process included the following steps: (1) local education
agencies reported RMTS participants and costs 4 to Maximus, (2) Maximus conducted the
statewide RMTS, (3) Maximus used the RMTS results to allocate the costs of Medicaid school-
based administrative activities and prepared an invoice 5 for each local education agency,
(4) Maximus compiled all invoices into a summary sheet after local education agencies verified
the accuracy of the invoices, (5) Maximus submitted the summary sheet to the State agency, and
(6) the State agency reported on the Form CMS-64 the total costs and the Federal reimbursement
amount shown on the summary sheet.

State Agency’s Random Moment Timestudy Methodology

The State agency used RMTS to identify, measure, and allocate the local education agency
employees’ time that was devoted to Medicaid school-based administrative activities and
calculated the total costs and the Federal reimbursement for the MAC program. The 2004 State
guide required Maximus to conduct an RMTS on behalf of the State agency for each quarter.

Maximus created two sample universes: a universe of total available moments in time and a
universe of all RMTS participants. Maximus used a computer software program to randomly
select a moment in time (described as a specific 1-minute unit of a specific day) from a universe
of total available moments and matched it with a randomly selected name from a universe of
RMTS participants. A sample item was a random moment for a randomly selected RMTS
participant.

Maximus generated an observation form for each sample item, and each selected RMTS
participant was informed of his or her random moment in advance. 6 The selected participant was
required to complete the observation form for the random moment by (1) choosing the activity
code that best described the activity performed at the random moment, 7 (2) providing a written

4
  The local education agencies submitted participant lists before the start of the applicable quarter and the costs after
the end of the applicable quarter. Participants were local education agencies’ employees who were expected to
spend time on Medicaid administrative activities. Costs included salaries and wages and fringe benefits of all
RMTS participants, staff providing support exclusively to those RMTS participants, and selected direct and indirect
costs of local education agencies.
5
  The invoice included data on direct and indirect costs, the Medicaid eligibility rate, and the RMTS results. The
formulas imbedded in the invoice calculated the total claimable amount and the Federal reimbursement for each
local education agency.
6
 Before the fourth quarter of 2006, Maximus generated hardcopies of observation forms and sent them to local
education agencies for distribution to selected RMTS participants. Beginning in the third quarter of 2006, Maximus
used a Web-based program that enabled selected participants to complete observation forms online. Maximus still
sent hardcopy observation forms to some local education agencies.
7
 As of the third quarter of 2005, the selected RMTS participants were not required to identify the activity code.
Maximus assigned the activity code on the basis of descriptions of activities provided by the selected participants.



                                                            3
description of the activity, (3) marking the appropriate position code checkbox, and (4) signing
and dating the form. Maximus required participants to receive training on proper completion of
observation forms.

Maximus used the information recorded on the observation forms to calculate a statewide
percentage of time spent on Medicaid administrative activities (statewide Medicaid percentage).
When participants did not return observation forms (i.e., nonresponses) or the forms had missing
or inaccurate information, Maximus discarded from the calculation the sample items associated
with those forms. 8 Maximus applied the statewide Medicaid percentage to the selected costs of
local education agencies and determined the total costs and the Federal reimbursement.

In this report, we refer to the State agency’s process for conducting the RMTS as “the RMTS
methodology.”

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) the State agency maintained required
documentation to support the RMTS methodology used to allocate school-based administrative
costs to the Medicaid program and (2) the RMTS methodology was consistent with Federal
requirements.

Scope

CMS requested that we review Medicaid school-based administrative costs that the State agency
claimed. Specifically, we reviewed $61,091,772 ($30,545,822 Federal share) for Medicaid
school-based administrative costs that the State agency claimed on behalf of approximately
200 local education agencies that participated in the MAC program during the period
January 1, 2004, through September 30, 2008 (a total of 19 quarters).

Our objectives did not require an understanding or assessment of the State agency’s overall
internal control structure. We limited our review to obtaining an understanding of the RMTS
methodology that the State agency used to allocate Medicaid school-based administrative costs.
We did not review (1) the allowability of the costs reported by local education agencies, (2) the
services associated with those costs to determine whether they were allowable for reimbursement
under Medicaid, or (3) the computer software that Maximus used to select sample items.

We conducted fieldwork at the State agency office in Phoenix, Arizona, and at selected local
education agencies in Arizona.




8
 When calculating the statewide Medicaid percentage, the State agency did not include nonresponses or observation
forms with missing or inaccurate information. Removing (i.e., discarding) sample items reduces the sample size and
may result in a higher statewide Medicaid percentage and more Federal reimbursement.


                                                        4
Methodology

To accomplish our objectives, we:

       •   reviewed applicable Federal laws, regulations, and guidance and the State plan;

       •   reviewed the contract between the State agency and Maximus for the MAC program;

       •   reviewed the State guides developed in calendar years 2004 (amended in October 2008),
           2009, and 2010;

       •   interviewed CMS officials to obtain an understanding of the RMTS methodology and
           documentation requirements in the CMS guide;

       •   interviewed officials from the State agency, Maximus, and selected local education
           agencies to obtain an understanding of the MAC program and the State agency’s RMTS
           methodology for allocating school-based administrative costs to Medicaid;

       •   obtained from the State agency computer-generated data files 9 related to Medicaid
           school-based administrative costs claimed for the audit period;

       •   verified the mathematical accuracy of the State agency’s calculations of Medicaid school-
           based administrative costs reported on the invoices and summary sheets for the MAC
           program;

       •   determined whether the State agency’s RMTS results were statistically valid by obtaining
           a professional opinion from our statistical consultant, who evaluated

                o our description of the findings as presented in the section entitled “Sampling
                  Methodology Not Fully Consistent With Federal Requirements,”

                o the result of our analysis showing the sample size and the number of discarded
                  sample items for each quarter (when available), and

                o CMS’s responses to our questions related to the discarded sample items;

       •   reviewed the quarterly data files and observation forms to determine the number of
           sample items that Maximus selected but discarded when calculating a statewide Medicaid
           percentage and to identify activity codes for the discarded sample items; 10

       •   recalculated the statewide Medicaid percentages on the basis of our review of the
           quarterly data files and observation forms;

9
 The data files included the sample universe, sample selection, sample results, invoices, and summary sheets for
each quarter, when available.
10
     We did not determine whether the activity codes on the observation forms were correct.


                                                           5
   •    used the State agency’s formulas for calculating Medicaid school-based administrative
        costs and determined the effect on the Federal reimbursement by comparing the original
        claiming invoices with the revised invoices; and

   •    shared the results of our review with CMS and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not always maintain required documentation to support the RMTS
methodology used to allocate school-based administrative costs to the Medicaid program, and
the RMTS methodology was not fully consistent with Federal requirements. Of the $30,545,822
(Federal share) claimed, we determined that $11,716,850 was unallowable, and we set aside the
remaining $18,828,972 for CMS resolution.

For 2 of the 19 quarters, the State agency did not maintain required documentation to support
(1) the universes of total available moments in time and RMTS participants and/or (2) the sample
of random moments for selected participants. Because the State agency did not maintain this
documentation, the $5,421,711 in Federal reimbursement that it received for these quarters was
unallowable.

For the remaining 17 quarters, the State agency’s RMTS methodology was not fully consistent
with Federal requirements:

    •   The State agency inappropriately discarded sample items when calculating the statewide
        Medicaid percentages. We determined that $6,295,139 of Federal reimbursement was
        unallowable on the basis of the revised statewide Medicaid percentages we calculated.

    •   The RMTS methodology did not meet acceptable statistical sampling standards because
        the universes from which the sample items were selected were incomplete or incorrect.
        Because we were unable to determine which portion of the State agency’s claim for
        Federal reimbursement would have been allowable if complete or correct universes had
        been used to calculate the statewide Medicaid percentages, we set aside the remaining
        $18,828,972 for CMS resolution.

See Appendix A for a summary of deficiencies for each quarter and Appendix B for our
calculation of the unallowable and set-aside Federal reimbursement for each quarter.

The State agency did not have adequate controls to ensure that it maintained all required
documentation to support the RMTS methodology and that the RMTS methodology was


                                                6
consistent with Federal requirements. In addition, the 2004 State guide included incorrect
guidance that allowed Maximus to discard sample items.

INADEQUATE DOCUMENTATION TO SUPPORT SAMPLING METHODOLOGY

The State agency did not always maintain required documentation to support the RMTS
methodology used to allocate school-based administrative costs to the Medicaid program.

Federal and State Requirements

Federal regulations (42 CFR § 431.17(b)) state: “A State plan must provide that the Medicaid
agency will maintain or supervise the maintenance of the records necessary for the proper and
efficient operation of the plan. The records must include — Statistical, fiscal, and other records
necessary for reporting and accountability as required by the Secretary.” Further, Federal
regulations (42 CFR § 433.32) state: “A State plan must provide that the Medicaid agency and,
where applicable, local agencies administering the plan will — Maintain an accounting system
and supporting fiscal records to assure that claims for Federal funds are in accord with applicable
Federal requirements.”

CMS’s State Medicaid Manual, Pub. No. 45, section 2497.3, requires the State agency to have a
recordkeeping system that ensures that documentation supporting a claim is regularly
maintained, easily retrieved, and readily reviewable.

The CMS guide, section V.B.4., states: “As with all administrative costs that are related to
[RMTS], there must be documentation of the costs for which [Federal reimbursement] will be
claimed under Medicaid. Documentation to be retained must support and include the following:
the sample universe determination, sample selection, sample results, sampling forms, cost data
for each school district, and summary sheets showing how each school district’s claim was
compiled.”

The Arizona State plan, No. 95-15, section 4.7, says: “The [State] agency maintains or
supervises the maintenance of records necessary for the proper and efficient operation of the
plan, including records regarding … administrative costs, and statistical … records necessary for
reporting and accountability, and retains these records in accordance with Federal requirements.”

No Documentation for Sample Universe Determination and/or Sample Selection

For 2 of the 19 quarters, the State agency did not maintain required documentation to support the
sample universe determination (i.e., universes of total available moments in time and all RMTS
participants) and/or the sample selection (i.e., random moments for selected participants).
Because the State agency did not maintain this documentation, the $5,421,711 in Federal
reimbursement that it received for these quarters was unallowable.

For the first quarter of 2004, the State agency provided us with copies of 3,559 filled-out
observation forms (i.e., the sample results) but did not provide data files to support the sample
universe determination and the sample selection. For the second quarter of 2005, the State



                                                 7
agency provided us with copies of 3,730 filled-out observation forms but did not provide a data
file to support the sample universe determination. A Maximus official stated that Maximus
could not locate the data files supporting the sample universe determination and the sample
selection. Without these files, we could not determine whether the observation forms that the
State agency provided were for the sample items selected for those two quarters. Because the
State agency was unable to provide required documentation of the sample universe determination
and/or sample selection, the Federal reimbursement for school-based administrative costs for
those quarters was unallowable.

SAMPLING METHODOLOGY NOT FULLY CONSISTENT WITH
FEDERAL REQUIREMENTS

The RMTS methodology that the State agency used to allocate school-based administrative costs
to the Medicaid program for 17 of the 19 quarters 11 was not fully consistent with Federal
requirements in the following ways:

     •   The State agency inappropriately discarded sample items when calculating the statewide
         Medicaid percentage for each quarter.

     •   The RMTS methodology did not meet acceptable statistical sampling standards because
         the sample universes from which the State agency selected the sample items were
         incomplete or incorrect.

Inappropriately Discarded Sample Items

Federal Requirements

The CMS guide, section V.A., states: “The burden of proof … of time study sample results
remains the responsibility of the states.” Further, section V.B.2. of the guide states that the
validity and reliability of the sampling methodology must be acceptable to CMS, and all
nonresponses should be coded as non-Medicaid activities. CMS central office and regional
officials informed us that section V.B.2. of the guide means that State Medicaid agencies may
use alternate methodologies, including oversampling, to factor nonresponses into their
methodology but only with prior approval from CMS. That is, any alternate methodology used
to compensate for nonresponses must be submitted to CMS for review and approval before
implementation and must also be statistically valid and reliable. CMS officials also informed us
that observation forms with missing or inaccurate information are considered to be nonresponses
and should be coded as non-Medicaid activities.




11
  We did not evaluate the sampling methodology for 2 of the 19 quarters: the first quarter of 2004 and the second
quarter of 2005. We disallowed the costs claimed for these quarters because the State agency did not maintain the
required documentation. (See the discussion in the previous section.)


                                                         8
Sample Items Inappropriately Discarded When
Statewide Medicaid Percentages Were Calculated

The State agency did not fully adhere to the provisions of the CMS guide regarding the treatment
of nonresponses. Of 34,400 sample items related to observation forms sent to the statewide
RMTS participants for the 17 quarters, the State agency inappropriately discarded 6,754 items
when calculating the statewide Medicaid percentages. Of the 6,754 discarded items, 3,192 were
for nonresponses (observation forms that were not returned), and 3,562 were for observation
forms that had missing or inaccurate information, including no activity codes or description, no
signature or date, and completion by someone other than the selected participant.

The State agency should have retained the discarded items in the sample and coded them as
non-Medicaid activities, as stated in the CMS guide, because the State agency could not provide
documentation that the discarded items were for Medicaid school-based administrative activities.
By discarding the items, the State agency reduced the sample size, which resulted in higher
statewide Medicaid percentages. The higher Medicaid statewide percentages led to increased
Federal reimbursement.

We recalculated the statewide Medicaid percentage for each of the 17 quarters by including the
discarded items in the sample and treating them as non-Medicaid activities unless the
observation forms indicated otherwise. For those forms that the State agency discarded, we
treated the items as Medicaid activities if the forms indicated that the activities were related to
Medicaid.

Of the $25,124,111 in Federal reimbursement that the State agency received for the 17 quarters,
$6,295,139 was unallowable on the basis of our revised statewide Medicaid percentages. To
calculate the unallowable reimbursement for each quarter, we used the original invoice files
provided by the State agency and entered our revised statewide Medicaid percentage. The
invoices had embedded formulas to calculate the revised Federal reimbursement. The difference
between the Federal reimbursements claimed on the original invoices and recalculated amounts
on the revised invoices was unallowable. We totaled the differences for each quarter and local
education agency and determined that $6,295,139 was unallowable.

The graph on the next page illustrates the differences between the State agency’s Medicaid
percentages and our revised statewide Medicaid percentages for the 17 quarters. The graph does
not show data for 2 of the 19 quarters—the first quarter of 2004 and the second quarter of
2005—because we could not calculate the revised statewide Medicaid percentages. (See the
discussion in the previous section.)




                                                  9
                                 State Agency’s Original and
                         Office of Inspector General’s (OIG) Revised
                              Medicaid Percentages by Quarter




See Appendix C for the statewide Medicaid percentages that the State agency used to determine
the total costs and the Federal reimbursement and our revised statewide Medicaid percentages.

Incomplete or Incorrect Sample Universes

Federal Requirements

Federal cost principles (2 CFR part 225, Appendix B, section 8.h.(6)), state: “Substitute systems
for allocating salaries and wages to Federal awards may be used in place of activity reports .…
Such systems may include … random moment sampling.” Sections 8.h.(6)(a)(i), (ii), and (iii)
state that sampling methods used to allocate salaries to Federal awards must meet acceptable
statistical sampling standards, including (1) the sampling universe must include all of the
employees whose salaries and wages are to be allocated on the basis of the sample results, (2) the
entire time period involved must be covered by the sample, and (3) the results must be
statistically valid and be applied to the period being sampled.

Sample Items Selected From Incomplete or Incorrect Sample Universes

The RMTS methodology did not meet acceptable statistical sampling standards because the
sample universes from which the State agency selected the sample items were incomplete or
incorrect:

   •   The sample universe for each quarter did not include all of the employees whose salaries
       and wages were allocated on the basis of the sample results. For 17 quarters, the universe


                                               10
       included certain employees but did not include their salaries and wages for allocation.
       For seven quarters, the sample universe did not include certain employees but included
       their salaries and wages for allocation.

   •   The sample universe did not cover the entire time period, i.e., employee work hours. For
       nine quarters, Maximus used a standardized work schedule when selecting random
       moments for the sample. The use of a standardized work schedule did not account for
       employees who had different work schedules. For example, during the quarter ended
       September 30, 2005, some employees were required to be at work by 7:15 a.m. Because
       the standardized work schedule for this quarter began at 8:00 a.m., 1-minute increments
       of those employees’ work hours from 7:15 a.m. to 7:59 a.m. were not included in the
       universe and did not have a chance to be selected in the sample.

   •   Each sample item in the universe did not have an equal chance of being selected in the
       sample. For 12 quarters, the universe included some employees more than once. If an
       employee is included more than once in the universe, the number of random moments for
       that employee will be greater and will have a greater chance of being selected than the
       random moments for other employees. Therefore, for the 12 quarters, not all of the
       employees’ random moments had an equal chance of being selected.

The State agency’s RMTS methodology yielded statistically invalid sample results. For the
sample results to be statistically valid, the universe must include all of the RMTS participants’
salaries and wages for cost allocation, the universe must cover the entire time period of each
employee’s work hours, and each item in the universe must have an equal chance of being
selected.

Because we were unable to determine which portion of the State agency’s claim for Federal
reimbursement would have been allowable if complete or correct universes had been used to
calculate the statewide Medicaid percentages, we set aside $18,828,972 for CMS resolution.

LACK OF ADEQUATE CONTROLS

The State agency did not have adequate controls to ensure that it maintained all required
documentation to support the RMTS methodology and that the RMTS methodology was
consistent with Federal requirements. In addition, the 2004 State guide included incorrect
guidance that allowed Maximus to discard sample items.

The State agency did not maintain adequate documentation to support the RMTS methodology
used to allocate school-based administrative costs to the Medicaid program. The contract
between the State agency and Maximus required Maximus to maintain all required
documentation. The contract also provided that the State agency would oversee the MAC
program. However, the State agency failed to exercise its oversight authority to ensure that
Maximus maintained all required documentation to support the RMTS methodology. The State
agency relied on Maximus to maintain all required documentation, including the documentation
for the sample universe determination and the sample selection.




                                                11
The State agency’s 2004 State guide did not adhere to the CMS guide and stated that the State
agency could discard sample items, such as nonresponses and observation forms with missing or
inaccurate information, from the sample when calculating the statewide Medicaid percentage. 12

RECOMMENDATIONS

We recommend that the State agency:

     •   refund to the Federal Government $11,716,850 for unallowable school-based
         administrative costs,

     •   work with CMS to determine the allowability of $18,828,972 that we set aside and refund
         to the Federal Government any amount determined to be unallowable,

     •   strengthen controls to ensure that all required documentation to support the RMTS
         methodology is maintained and the RMTS methodology is consistent with Federal
         requirements, and

     •   review periods after our audit period and make appropriate financial adjustments for any
         unallowable school-based administrative costs claimed.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our third and fourth
recommendations. However, the State agency did not concur with our first recommendation to
refund $11,716,850 and our findings resulting in the recommended set-aside amount.

In response to our first recommendation, the State agency commented that it objected to any
findings based on incomplete documentation for any dates before July 1, 2007, and that there
should be no disallowance associated with discarded sample items:

     •   The State agency commented that it was under no obligation to maintain records beyond
         the 3-year record retention period required by Federal regulations. It also commented
         that none of our audit notification letters “put the State agency on reasonable notice of an
         obligation to retain records” for the first quarter of 2004 and the second quarter of 2005.
         The State agency said that it would work with CMS to discuss options for determining an
         appropriate refund for the two quarters.

     •   The State agency commented that CMS was aware of the State agency’s proposed
         treatment of nonresponses but did not challenge or question the proposed treatment.
         Therefore, the State agency concluded that we were in error when we recommended a
         disallowance associated with discarded sample items. The State agency said that in
         March 2004, it submitted to CMS a revised RMTS methodology, which clearly indicated
         that observation forms with missing or incomplete information would be discarded from
12
  The 2010 State guide approved by CMS allowed the State agency to use an alternate methodology of
oversampling; therefore, discarding sample items may no longer be an issue.


                                                      12
           the sample and that only valid forms would be included in the State agency’s calculation
           of the statewide Medicaid percentages. The State agency said that it never received
           questions from CMS related to its proposed RMTS methodology and continued to
           administer the program under this methodology. The State agency said that it is
           “fundamentally unfair for OIG or CMS to criticize the State for failing to operate its
           program in accordance with a requirement for prior approval of the methodology that was
           not conveyed to the State prior to implementation.”

In response to our recommendation regarding a set-aside amount, the State agency commented
that it explicitly reserved the right to contest our findings in any action taken by CMS.

The State agency’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We disagree that the State agency was under no obligation to maintain records beyond the 3-year
retention period and that there should be no disallowance associated with discarded sample
items.

Although Federal regulations (42 CFR § 433.32(c)) require the State agency to maintain records
for 3 years from submission of a final expenditure report or longer if audit findings have not
been resolved, Federal cost principles (2 CFR part 225, Appendix A, section C.1.c.) state that to
be allowable, costs must be authorized or not prohibited by State or local laws or
regulations. The Arizona Administrative Code, Title 9, chapter 22, section R9-22-503, requires
Medicaid providers, including local education agencies, to maintain records for 5 years from the
date of final payment. Therefore, records that support the allowability of school-based
administrative costs claimed by the State agency are required to be retained for 5 years.

In a letter dated October 20, 2008, we notified the State agency of our audit of school-based
administrative costs, which included a review of the State agency’s use of contingency fee
payment arrangements with consultants and the impact of those arrangements on the submission
of improper claims. The audit period covered school-based administrative costs that the State
agency claimed during the period January 1, 2004, through June 30, 2008. After sending the
letter, we began collecting relevant records and interviewing officials from both the State agency
and Maximus. After reviewing the information obtained, we narrowed the scope of our audit of
school-based administrative costs to review only the RMTS methodology that the State agency
used to allocate the costs. 13 In a letter dated March 11, 2011, we notified the State agency of our
intent to continue to audit its school-based administrative costs and changed the audit period to
cover through September 30, 2008. Because the State agency originally received notice of our
audit on October 20, 2008, it should have retained all records relevant to school-based
administrative costs for the entire audit period, which was covered by the 5-year record retention
requirement.




13
     We decided not to review contingency fee payment arrangements with consultants.


                                                         13
Because CMS did not approve the State agency’s proposed RMTS methodology, the State
agency should have followed the CMS guide, which required that all nonresponses be coded as
non-Medicaid activities.

The State agency did not provide any information explaining its nonconcurrence with our
findings that resulted in a set-aside amount.

We maintain that our findings and recommendations are valid.




                                              14
APPENDIXES
             APPENDIX A: SUMMARY OF DEFICIENCIES BY QUARTER

                                           Legend

1         Inadequate documentation to support sampling methodology
2         Sampling methodology not fully consistent with Federal requirements
    A       Inappropriately discarded sample items
    B       Incomplete or incorrect sample universes
              The sample universe did not include all of the employees whose salaries and
       i
              wages were allocated on basis of the sample results.
              The sample universe did not cover the entire time period, i.e., employee work
      ii
              hours.
              Each sample item in the universe did not have an equal chance of being selected
      iii
              in the sample.

                        Office of Inspector General Determinations of
                                    Number of Deficiencies

    Year      Quarter         1            2A           2B(i)         2B(ii)         2B(iii)
                                           Not           Not           Not            Not
    2004         1            x         applicable    applicable    applicable     applicable
                 2                          x             x             x              x
                 3                          x             x             x              x
                 4                          x             x             x              x
    2005         1                          x             x             x              x
                                           Not           Not           Not            Not
                 2            x         applicable    applicable    applicable     applicable
                 3                          x             x             x              x
                 4                          x             x             x              x
    2006         1                          x             x             x              x
                 2                          x             x             x              x
                 3                          x             x             x
                 4                          x             x
    2007         1                          x             x                            x
                 2                          x             x
                 3                          x             x                            x
                 4                          x             x                            x
    2008         1                          x             x
                 2                          x             x
                 3                          x             x                            x

    Total                     2             17            17             9            12
        APPENDIX B: UNALLOWABLE AND SET-ASIDE FEDERAL
                  REIMBURSEMENT BY QUARTER

                                     Unallowable
                        Federal         Federal     Set-Aside Federal
Year      Quarter   Reimbursement   Reimbursement    Reimbursement
2004        1         $3,372,051     $3,372,051                $0
            2          3,802,295        766,660         3,035,635
            3          2,230,440        723,177         1,507,263
            4          2,538,436        682,456         1,855,980
2005        1          1,910,965        315,552         1,595,413
            2          2,049,660      2,049,660                 0
            3          1,447,429        427,080         1,020,349
            4            700,305        149,062           551,243
2006        1          1,295,357        200,059         1,095,298
            2            885,870        192,178           693,692
            3            906,739        244,772           661,967
            4          1,681,091        580,437         1,100,654
2007        1          1,629,994        506,915         1,123,079
            2          1,308,524        362,783           945,741
            3          1,114,758        444,387           670,371
            4            690,191         55,220           634,971
2008        1            750,742         57,026           693,716
            2          1,590,419        382,975         1,207,444
            3            640,556        204,400           436,156
Total               $30,545,822     $11,716,850      $18,828,972
            APPENDIX C: ORIGINAL AND REVISED STATEWIDE MEDICAID
                          PERCENTAGES BY QUARTER

                                                                   State Agency          Office of Inspector
                                                 No. of             Statewide             General Revised
                                              Discarded              Medicaid            Statewide Medicaid
    Year    Quarter Sample Size              Sample Items           Percentage               Percentage
    2004      1     Not applicable 1         Not applicable             8.51                Not applicable
              2          4,000                    449                   9.41                     7.67
              3          3,500                    577                  11.46                     7.74
              4          4,500                    839                  11.48                     8.28
    2005      1          4,000                    516                   8.98                     7.55
              2     Not applicable1          Not applicable             8.13                Not applicable
              3          4,000                    904                  10.51                     7.42
              4          1,200                    193                   6.28                     4.93
    2006      1          1,200                    160                   7.94                     6.79
              2          1,200                    172                   4.72                     3.69
              3          1,200                    330                   7.63                     4.97
              4          1,200                    347                   7.75                     5.07
    2007      1          1,200                    291                   7.93                     5.46
              2          1,200                    267                   7.23                     5.24
              3          1,200                    407                   7.91                     4.79
              4          1,200                    354                   2.21                     2.03
    2008      1          1,200                    340                   4.13                     3.81
              2          1,200                    272                   7.39                     5.58
              3          1,200                    336                   5.42                     3.69
    Total              34,400                   6,754




1
 We could not determine the sample size and the number of discarded sample items because of the lack of
documentation. Therefore, we could not calculate the revised statewide Medicaid percentage.
                                                                                                                         Page 1 of 4


                       APPENDIX D: STATE AGENCY COMMENTS



    J Hnicf K. Rrewc r, Govl'rn or 

    Th omas J.         8 ~ t lac h ,   Director 

    M/ f:n.<1.hjfo,_ . /'h.,.no ~        ~ 1. 8 J DH
                                                                                        AHCCCS
    I'()   /I"" ]j Jl~. /''''''mx. •4 l. 8JOO]
    1'_        6iJMI7·JOOfJ
                                                                               O"~ji,,,' cnr~ i~)'''''r hl'tlllh "'''~
    wW"-.",AlIea:o.I!<'"
                                                                      .o.R'ZONA fiEALTH c.o.~~ COST CONT A IN~T SYSTEM



August 16,2012

Lori A. Ahlstrand
Regional Inspe<:torGenera l for Audit Services
Office of lhe Inspector General
Depanment of Health and '·11I1ll3n Services, Region IX
90 - 7th Street, Suile 3-650
S~n Francisco, Califomia 94103


RE: A-09-I I-02020

Dear Ms. Ahlstra nd;

The Arizona Health Can:: COSI Containmen t System (AHCCCS) has !"C\·icwcd the draft report entitled
" Arizona Improperly Claimed Federal Reill1burscrnent for Medicaid School-Based Adm inistrative Costs."
r appreciate the opponunily to provide comments on the recommendations contained in thc draft report to
be taken into consideration in the preparation of the lina! report.

The draft report reco mmends that AHCCCS ""refund to Ihe federal gOl'cnuncm $11 ,716,850 for
unllilowable school ~based administrative costs." AHCCCS does not concur wilh lhis reeomrnendalioll. In
addition the repon identilies $18,828,972 (federal share) thaT DIG finds unallowable but ha~ decided to
set As ide for resohltion by CMS. Allcees dot!s nOI coneur with the finding~ of the DIG lIudit resulting in
the sct aside ~mollnt and cxplicit!y rese rves thc right to contest the findings in any action taken by CMS.

No Iloeumenlation for Sample Universe DeTermination a nd/or Sample St-Ieclion
The DIG audil identifies an issue with $5,421,711 ill "nallowable admi nistrative costs associated with
missing supporting datn Iiles for 2 of the 19 quarters under review. The draft report notes that for the firsl
quarter of 2004 and second quaner of 2005 AHCCCS is unable TO provide the '"data files supporting the
samplt universe detemli nation and Ihe sample selection."

The State objecTS to any findings based on incomplete documentation for any dates prior to July I, 2007,
of (I) the universes of total available momenB in timc and RMTS p~rticipan t s and/or (2) the sample of
r.mdurn mumtnts for Sl!leeted RMTS participants becauS<.' the State was under no obl igation to mai ntain
Those records. PursuaU! to 45 CFR 92.42(b)(l) end (c), as a general rule, States are required to mainlain
records for a fiscal year forthrec years from the date the State files il final quarterly expeudilllre report for
the fiscal year. Subsection (b)(2) of that regulations modifies the general rule to require retention for the
th ree year period following the close of all audiT "if ~ny litig~Tion , claim, negoliation, audi l or other action
involviTlg the records has been started before the txp iratiun or the Inurmall 3-ycar period."

By leiter dared March Il,201 !, OIG noTified the State ofils "inTention TO conduct an audit of Medicaid
school-based administrative custs claimed by the Slate of Arizona." O rG had sent the Stme lellers prior to
that date regardi ng audits of (I) Medicaid services provide by local educational agencies and (2)
cuntingellcy fcc Hgreeme nts regarding tht State's compt:nnltion of its com'lI!tullt un school-based
administrativc costs. However, 110ne of those leiters put the State Oil reasonable notice of an obligation fO
retain records regarding the State's claims for the administrative costs themselves beyond the norma l
three year period.
                                                                                                                 Page 2 of 4




Ms. Lori A. Ahlstrand
Angus! 16. 2012
Page 2

Due \0 th~ e"tended lime frame ill whi~h the audit of thc Arizona Medicaid school-based claiming
program was conduch:d, II small portion of the supporting dlll" has been misplaced. II is clear from the
complete data filcs available for thc other 17 qUlI11crs, thc secondary data avoilable for the two quarters in
question, and Ihc I;'xistence of completed claim calculations for Ihl:l two affected quarters tllal lima were
8\'lIilablc a! the lime the claim calculation was completed. Therefore. AlLeCeS docs not agree that Ihe
entire claim for the two affected quarters should be disallowed. The ~tate will work witll eMS to discuss
options for determini ng lin appropriate refund for the two quru1crs that does lIol"lmfairly penalize the
L.ocal Education Agencies (LEAs).

Ina lJll ru priale h' Discll rd ed Sampl e It ems
The O IG Audit identifies $6,295,139 in unallowable administrative costs associated wi th "improperly
discarded s,1mple items whell calculating the sta tcwide Mcdicaid pcrecnt~g" for each quarter." Th" OIG
fillds that the State did UOI adhere 10 the CMS guide and inappropriately discardcd nonresponscs from the
Random Moment Time Study (ItJ'v1 TS) sample.

On March 23, 2004 AHCCCS submilled to CMS a revised methodology for the Medi caid Administrative
Claiming program ror review and approval. That method ology clearly idcntilied the proposed treatment
of RMTS fonns. Forms retumed with missing or incomplete information, o r completed by participants
not trained prior to their momenl, werc 10 be marked invalid and rcmoved from Ihe sample. l'orm5 Ihat
were not ~Iunled were 10 be marked invalid and removed from the sample. Only valid forms would be
included in Ihe tabulation.

On November 5, 2U04, prior to paying the March 2004 administrath'e claim, AHCCCS contacted the
CMS Region IX office inquiring as to the StlllUS of the subm illed methodology, A response was received
from the regiOlml office the s~mc day statillg that the methodology had been submitted TO CMS Central
Office for review on March 23, 2004. The email also stated that starf who had reviewed the methodology
indjcat~-d that it looked goOO, they had on l)' a few questions, and they understood that until the State
reeclved final approval , thc program was being o perated IInder a methodology prepared in accordance
with AI-(CCCS ' understanding of the requirement s of the claiming gu ide.

AHCCCS ne ver received questions related 10 the March 2004 submission and continued to admini ster the
program und.:r the proposed methtxlology as suggested by the CMS R"'Sion IX office. In June 2008,
when advised by the school-based program contractor that recelll CMS guidance was in disagreement
with th.: Stat.:'s interpretation of the treatmelll of nonresponses. the State dralled an all1cnd~-d
methodology which was submitted to CMS for review and applUval in October 2008. The State
immediately implemented the changes proposed in the amended methodology to tabulate the December
2007 administrative claim. CMS provided a respon.se to the Oetoher 2008 submission, and through the
subsequent review and approval process, the State IIladc fltrther revisions and a methodQlogy was finally
approved ror Ari7.0n3 in M~y 20 IO.

T he OIG dran report sta tes "CMS eentml office and regional officials informed us that section V.B.2. of
the guide meallS that State Medicaid agenci.:s may use allernllte methodologies, including oversampling,
to factor nonresponses into their methodology but ollly with prior approval from CMS. Thai is. any
alternate IIlcthodology used 10 compens.1te for nonrcspOllses mnst be submitted to CMS for review and
llPproval bl:fore impl.:meliMioll 1IIId must also be statistically va lid and reliable" (emphasis added).
Neither the Medicaid Act, its implementing regulations, lI or the CMS Medicaid Schoof-Hosed
Adllli"i~'lmlh'e Cfuilllillg Guide require prior approval. At a minimum, with T1'spect 10 cI~im~ after the
State's implemenlation of the amended methodology in O<:tober of 2008, the Slale is entitled to claim
expenditures based 011 that methodology based 011 CMS' approval of the melhodology in May or20 IO.
                                                                                                                Page 3 of 4




Ms. Lori A. A h lslr~nd
August 16,2012
Page 3

The purpose of 811 QIG audi t is to detenlline whether the State's Mcdi~aid pmgmm "is bt:ing oreratcd in a
cost-effective manner" and whtthcr "funds are being properly expended for the purposes for which they
were appropriated under Federal and State laws and regulaliolls." 42 CFR 430.33(a) (emphasis added).
In addition, 42 CFR 430.32 stllles that eMS reviews State admin istration of the Medicaid program "to
determine whe ther the Stale is complying with Ihe !'ederal reqllirem~l1ls and the provisio ns o f [the Slate's
Medicaidl plan ~ (emphasis added). "lllC regulations in Part 4)0, Subpa rt C "sct forth Stale plan
reqlliremenls, sUlndards, procedures, and condilion~ for obtainin g Fedcml rimmcial participation." 42
C I' R 430.1 (emphasis added).

To Ihe ex lent Iha! this finding is premised on sta l~m~nts mad~ by CMS 10 OIG tha t approval of Ihe
protocol was rc(l uil~d befon: claiming cou ld occur - oral statements thai arc 001 su pported hy stMute,
regulation. or published guidance - the State objects to Ihe fintling. It is fUllda!l1en t ~rry unfair for OIG or
CMS to critic ile the Statc for fai ling to operate its program in accordance with a requiremcnt tor prior
81)proval of 1he methodology thai wa~ nOI conveyed 10 the Stale prior 10 implemenlation. This is
panieularly true in light ofCMS' knowledge Ihatthe Slate im plemented the methodology while approval
was pending.

AHCCCS su bm itted to CMS for rev iew and approval a methodology Ihe State believed to be a valid and
reliable way to address nonrespooses. The only respouse from CMS was generally poS itive with regard to
the proposed methodology and intlicmetl Ihal CMS untlerstood the SI3 te was operating under thm
methodolog.v. When notified b)' the school. hased contractor thai more recent CMS guidance, released
subseque nt to the original AllCCCS meth odo logy su bmission, disagreed with Ihe State's interpreta tion of
how non-responses could be treated, the State immed iately revised its methodology and submi tted those
revisions to Ihe CMS.

AHCCCS hclicves Ihat lhe tinding resulting in ul1allowab!e costs associated wit h ina ppropriately
discarded sample items hold s the State 10 a different sta ndard than the su bmiued methodology under
which the program was operating, a methodology never challenged or questioned by CMS. As s uch, it is
the Stale's position that orG reached this decision in error and Ihere should be no disa llo wance associated
with AHCCCS ' Ireal1nenl of nonresponses for the quaners reviewed.

Strengthe n C ontrols 

The draft report recommends AHCCCS "strengthe n controls to ensure tl1at all required docu mentation to 

suppon the RMTS methodoJogy is maintained and thc RMTS l!wtl1odolugy is cons istcll t wilh rcder~ ! 

reqlliremcnts." 


As diseu~.~ed ahovc, thc cxtcnded timc period it took to complete the Arizona school· based audit li kely
contributed to the misplacement of the two quaners of paper documentation associated with the very early
years of the audit. Since the time period associated with th e audit scvc ral changes have occurred that
inherently improve the controls ove r program dOCu!Henl~tjon, including Ihe increased use of leclHlo logy
to conduct the RMTS . In addition, AHCCCS continu es 10 monit()r n:cortl retcntion by the LEAs and Ihe
State' s contrnclcd T hird I'any Ad ll1iuist rntor throu gh opcrntional complia nce re\'iews.

A II CCCS concurs with this reco mmendation and will continue our effor1S to review documentation
retention Iu improve complia nce and enhance o\'ersight.

Re view J'cl""iotb afte r the Auditl'eriod li nd Makl' Apprnpriate Ad ;u s lml'nt.~ 

The draft r~port recommends that AH CCCS "review periods aftcr our audit p<lri od and makc appropriate 

financial adjust ments for any "n~lIow~hle ~chool-ha~ed ~dministrllli\"c costs claimed" 

                                                                                                              Page 4 of 4




Ms. wi A. A hl strand
August 16.2012
Page 4

As slated earlier, AHCCCS has comin llcd to revise the methodology for the administrative claiming
program to comply wilh gujdall~<: from eMS. The tirst rev ision, submi1ted in 2008 implemented changes
in quarters under review for the DIG lIudit. Since the end of the review period addit ional methodology
cha nges have been proposed and approved by eMS.

For olher issues associated wilh the appropriate calculation of costs claimed. AllCCCS coltcurs with this
recommendation. AI ICCCS. in coordination with our contractor, conducts regula r compliance reviews of
a ll particip.11ing LEAs. Those reviews are on-go ing and encompass the period after the l\ud il li ule frame.
Findinw; of unallowllbh: school-based ad ministrative ~osts associated with thuse ["Cviews result in
recoupment of funds from the I.EA.

[n SU l1lrn~ ry,   AHCCCS will continue to improve over.; ight o f the SdlOo[·Ha!>Cd Administrative Cla iming
program in an e ITort to ellhallce future coroplil1Uce with bot h Federa[ and sta te po li cy and program
regulations.

Tha nk yuu again for the opp<lrlunity to commen t on the dra ft OIG report. Please contact ei th er Melinda
Hollinshead, 602·417-4 746, or Trida Kmtent>crg, 602-41 7-41 49, if there are an y additional questions.

Sincerely.




Thomas J. Betlaeh
Director


ec: 	   Beth Lazare, Depllt)' Director
        Marc Leib, MD. Ch i", f M~-di~,,1 011i~r
        Rllbecca fields. Assistant Dir~tor. Division uf Fcc Fur Service Management
        Jim Cockerham, Assistant Director, Division of ilusincss and Finance
        Matt Devlin. Assistant OiI'L..:tor, Office o f Administmtive Leg<ll Services
